Case: 19-1792

Document: 00117561912

Page: 1

Date Filed: 03/06/2020

Entry ID: 6322881

United States Court of Appeals
For the First Circuit
No. 19-1792
BETSY SACHS,
Plaintiff - Appellant,
v.

BANK OF AMERICA, N.A.,
Defendant - Appellee.

Before
Howard, Chief Judge.
Torruella and Thompson, Circuit Judges.
JUDGMENT
Entered: March 6, 2020
Pro se plaintiff-appellant Betsy Sachs appeals from the district court's 1) denial of two
motions to remand to state court; 2) dismissal of her complaint, pursuant to Fed. R. Civ. P.
12(b)(6), for failure to state a claim; and 3) denial of a post-judgment motion for reconsideration.
Following a careful review of relevant portions of the record and the arguments sufficiently
developed by Sachs with her brief, we conclude that the appeal presents no "substantial question"
and that summary affirmance is in order. 1st Cir. R. 27.0(c); see also Sparkle Hill. Inc, v. Interstate
Mat Corp.. 788 F.3d 25, 30 (1st Cir. 2015) (this court "do[es] not consider arguments for reversing
a decision of a district court when the argument is not raised in a party's opening brief," particularly
where "the opening brief presents no argument at all challenging [the] express grounds upon which
the district court prominently relied in entering judgment"); United States v. Zannino. 895 F.2d 1,
17 (1st Cir. 1990) ("[IJssues adverted to in a perfunctory manner, unaccompanied by some effort
at developed argumentation, are deemed waived.").
We arrive at this conclusion substantially for the reasons set out by the district court when
it dismissed the complaint and when it denied Sachs's motions to remand and for reconsideration.
See Woods v. Wells Fargo Bank. N.A., 733 F.3d 349, 353 (1st Cir. 2013) (reviewing de novo
dismissal on Fed. R. Civ. P. 12(b)(6) grounds); Samaan v. St. Joseph Hosp.. 670 F.3d 21, 27 (1st

Case: 19-1792

Document: 00117561912

Page: 2

Date Filed: 03/06/2020

Entry ID: 6322881

Cir. 2012) (reviewing de novo denial of a motion to remand); Biltcliffe v. CitiMortgage. Inc.. 772
F.3d 925, 930 (1st Cir. 2014) (reviewing denial of Fed. R. Civ. P. Rule 59(e) motion for abuse of
discretion); Roosevelt REO PR II Corn, v. Del Llano-Jimenez, 765 F. App'x 459, 461 (1st Cir.
2019) (unpublished opinion) (reviewing denial of Fed. R. Civ. P. 60(b) motion for abuse of
discretion).
Affirmed
By the Court:
Maria R. Hamilton, Clerk
cc:
Betsy Sachs
Connie Flores Jones

Case 1:19-CV-00156-JJM-PAS Document 18 Filed 07/10/19 Page 1 of 2 PagelD #: 233

UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF RHODE ISLAND
BETSY SACHS,
Plaintiff,
v.

BANK OF AMERICA, N.A.,
Defendant.

)
)
)
)
)
)
)
)
)

C.A. No. 19-cv-156-JJM-PAS

ORDER
Plaintiff Betsy Sachs sued Bank of America, N.A. (“BofA”), the Mortgagee and
note holder for a loan she obtained on her property in Hopkinton, Rhode Island. In
her complaint, Ms. Sachs makes allegations against her financial advisor, against
whom she has an active complaint in state court where she alleges mismanagement
of funds among other things. She generally accuses BofA of predatory lending and
asks the Court to quiet title and for a declaratory judgment. BofA has filed a Motion
to Dismiss, which Ms. Sachs opposes.
The Court finds that Ms. Sachs does not state a claim of any recognizable cause
of action against BofA. She makes a bare allegation of predatory lending against
BofA, but that allegation is unsupported by any plausible facts. She alleges no
plausible facts to support a claim that BofA did anything illegal or even wrong
relative to her defaulted mortgage. And she admits that she did not make her
required mortgage payments and that she is in default. BofA has superior title to the

Case l:19-cv-00156-JJM-PAS Document 18 Filed 07/10/19 Page 2 of 2 PagelD #: 234

property and so there is no basis for quieting title or for a declaratory judgment about
the title
Because Ms. Sachs states no claim upon which relief can be granted, the Court
GRANTS Defendant Bank of America, N.A.’s Motion to Dismiss. ECF No. 5.

John J. McConnell, Jr.
United States District Judge
July 10, 2019

2

Case: 19-1792

Document: 00117570574

Page: 1

Date Filed: 03/26/2020

Entry ID: 6327845

United States Court of Appeals
For the First Circuit
No. 19-1792
BETSY SACHS,
Plaintiff - Appellant,
v.

BANK OF AMERICA, N.A.,
Defendant - Appellee.

Before
Howard, Chief Judge.
Torruella and Thompson, Circuit Judges.
ORDER OF COURT
Entered: March 26, 2020
Pro se plaintiff-appellant Betsy Sachs's "motion for reconsideration," construed as a
petition for panel rehearing, is denied. See Fed. R. App. P. 40(a)(2).

By the Court:
Maria R. Hamilton, Clerk
cc:

Betsy Sachs
Connie Flores Jones

